fan
seamen (SOCKLE

* E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B rre fs contact@cocklelegalbriefs.com
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-64

HEIDI C. LILLEY, KIA SINCLAIR and
GINGER M. PIERRO,
Petitioners,

v.

THE STATE OF NEW HAMPSHIRE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR RESPONDENT
IN OPPOSITION TO PETITION FOR A WRIT OF CERTIORARI in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
3406 words, excluding the parts that are exempted by Supreme Court Rule 33. 1(d), as needed.

Subscribed and sworn to before me this 5th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \ Chk
State of Nebraska : Lhe ,
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

38997
